 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




NATIONAL PRACTITIONER DATA BANK
    REPORTS TO MANAGED CARE
         ORGANIZATIONS:
  THEIR USEFULNESS AND IMPACT




                  JJ     sER”bs./,.
           .$)’                   -0’
                                    -f

          $?’                      ~       JUNE GIBBS BROWN
                                       /   Inspector General
                                       -
                       “vd3a   &   z           APRIL 1995
                                              OEI-01-94-OO032
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandatedby Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and managementproblems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES

The OIG’SOffice of Audit Services (OAS)provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independentassessmentsof HHS
programs and operations in order to reduce waste, abuse, and mismanagementand to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’SOffice of Investigations(01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigativeefforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AND INSPECTIONS
The OIG’SOffice of Evaluation and Inspections(OEI) conducts short-term management and
program evaluations (called inspections)that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendationscontained in these inspection reports
generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

This report was prepared in the Boston Region Office under the direction of Mark R. Yessian,
Ph.D., Regional Inspector General and Martha B. Kvaal, Deputy Regional Inspector General.
Project staff included:

BOSTON REGION                                           HEADQUARTERS

David Veroff, Project Leader                            Alan Levine, Program Specialist

Joyce Greerdeaf, ProgramAnalyst

Barry McCoy, ProgramAnalyst

Michael Sullivan, Summer Zntern


For additional copies of this report, please contact the Boston regional ofice by telephone at

(61~ 565-1050, or by fa at (617)565-3751.

             EXECUTIVE                           SUMMARY

PURPOSE:

To assess the usefulness and impact of the information in the National Practitioner Data
Bank to managed care organizations.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank (hereafter referred to as the
Data Bank) has received and maintained records of malpractice payments and adverse
actions against licensed health care practitioners. It provides hospitals and other health
care entities with information relating to the professional competence and conduct of
health care practitioners. Hospitals are required to request information from the Data
Bank about every physician and dentist who applies for appointment. In addition,
hospitals must query at least once every 2 years on every practitioner who is on their
medical staff or has privileges. Other health care entities, such as health maintenance
organizations (HMOS), preferred provider organizations (PPOS), and group practices may
query as long as they provide health care services and engage in professional review
activities through a formal peer review process. As of February 25, 1994, HMOS, PPOS,
and group practices had received, in response to queries, 31,377 reports of malpractice
payments or adverse actions against physicians, dentists, and other health care
practitioners.

In February 1993, we released a report that evaluated the usefulness and impact of reports
to hospitals through March 1992. In December 1993, the Administrator of the Health
Resources and Services Administration (HRSA) asked us to update the information in the
February 1993 report using more recent data. We agreed to conduct that study and
another study of the experiences of HMOS, PPOS, and group practices with using Data
Bank information. For purposes of this study we are referring to these as managed care
organizations. In this report we refer to some findings of the updated hospital report,
particularly where we found major differences between managed care organizations and
hospitals.

The data in this report are from a survey we conducted of managed care organizations that
received reports of malpractice payments or adverse actions from the Data Bank. We
sampled 400 matches--instances when a querying managed care organization received a
report of a specific incident--from the universe of 30,016 HMO, PPO, and group practice
matches from March 20, 1992 through February 25, 1994. We asked the managed care
officials questions about how they used and what their assessments were of the reports; we
received 203 useable responses. Appendix A gives details of our methodology.




                                             i
FINDINGS

USEFULNESS: Managed care officials found nearly all Data Bank reports to be
useful.

��     Managed care officials found 96 percent of the Data Bank reports they received to
       be useful. This compares with 83 percent of hospital officials who found the Data
       Bank reports to be useful.

��     Twenty-two percent of the Data Bank reports provided information previously
       unknown to managed care organizations.

��    The managed care officials’ most-often cited reason for usefulness was that the
      reports confirmed information about practitioners that organization officials already
      knew. Other common reasons cited include that the reports’ help in making
      judgments about practitioners’ professionalism and competency.

��     The managed care officials reported that, upon additional inquiry, 3 percent
       (5 of 203) of the Data Bank reports appeared inaccurate. No hospital reported
       that, upon additional inquiry, the Data Bank reports appeared inaccurate.

��     Overall, the Data Bank’s median response time to a query from a managed care
       organization was 23 days. With electronic queries, the median dropped to
       13 1/2 days; without electronic queries, it increased to 35.

IMPACT ON DECISIONS: The managed care officials seldom made different
privile~”ng decisions than they would have made without the Data Bank reports.

��     According to managed care officials, 3 percent (5 of 183) of the Data Bank reports
       led them to make different decisions than they would have made without the
       reports. Among the officials who did not make different decisions, 65 percent
       reported that the reports made them feel more confident about their decisions.

��     Eighty-one percent (148 of 183) of the Data Bank reports had little chance to have
       an impact on managed care organizations’ privileging decisions. These reports
       either named practitioners who did not complete the privileging process, were not
       received prior to the decisions, or provided information already known.

��     Sixteen percent (30 of 183) of the reports arrived before the managed care
       organizations made final privileging decisions and contained information that
       neither the physician nor any other source had provided, yet did not have an
       impact on the privileging decisions.




                                            ii
CONCLUSION

The information in this report contributes to an understanding of the usefulness and impact
of the Data Bank in managed care organizations. Almost all--96 percent--managed care
organizations receiving information from the Data Bank find it usefid. In fact, this
percent is considerably higher than the percent of hospitals finding the information useful
(83 percent). At the same time, our data reveal that Data Bank reports seldom affect
privileging decisions of managed care organizations.

During this and prior inspections on the Data Bank, we have become ever more aware of
differing expectations of the Data Bank. Thus, any assessments of the Data Bank’s
usefulness and impact will depend heavily on how these expectations are expressed and on
the relative emphasis given to them. In that context, we offer the following concluding
observations concerning three important expectations about the Data Bank.

��     Data Bank as a Reliable, Centralized Source of Inforrn&”on. In the sense that
       the Data Bank is expected to serve as such a source of information about adverse
       actions and medical malpractice payments, it seems to be working quite well. It is
       a timely, accurate source that is widely regarded as useful--mainly because it
       confirms information available from other (presumably less reliable) sources.

��     Data Bank as a Unique Source of Information. In the sense that the Data Bank is
       expected to serve as a unique source of information--that is, one unavailable
       elsewhere--it clearly has some value. In our sample, 22 percent of the reports
       provided new information to managed care organizations. That 22 percent projects
       to 6,483 reports providing new information to managed care organizations over a
       period of almost 2 years.

��     Data Bank as a Mechanism to Prevent Incompetent and/or Unprofessional
       Practitioners from Practicing in HMOS, PPOS, or Group Practices. Clearly this
       is the most ambitious and controversial of these expectations. It is also the one
       most difficult to assess without more information. In one sense, the fact that
       3 percent of reports are having an impact on privileging decisions may seem
       inappropriately low. It may suggest that managed care organizations are overly
       reluctant to take adverse actions against incompetent and/or unprofessional
       practitioners.

       Yet, to the extent that only a small percent of practitioners are unfit to practice,
       one may argue that nothing is necessarily inappropriate about 3 percent of reports,
       which projects to 930 reports over a period of almost 2 years, having an impact on
       privileging decisions. These 930 reports involve hundreds of practitioners and
       affect thousands of patients they serve. Finally, it is important to recognize that
       the very existence of the Data Bank may deter some unfit practitioners from even
       applying to managed care organizations for practice privileges and may encourage
       other practitioners to be more forthcoming in the applications they submit for
       managed care organization privileges.

                                             ...
                                             111
COMMENTS       ON THE DRAFT REPORT

We solicited and received comments on the draft report from the Public Health Service
(PHS), the Assistant Secretary for Planning and Evaluation (ASPE), the National
Committee on Quality Assurance (NCQA), and the American Medical Association
(AMA). We include the complete text of their comments in appendix C. Below we
summarize comments of the respondents and, in italics, offer our responses.

PHS Comments

The PHS indicated that the report would be “helpful.” It called for one minor change in
the background section of the report where we explain the Data Bank law. We appreciate
the positive response from PHS. We made the change requested.

ASPE Comments

The ASPE supported the purpose of our inquiry and noted that the methodology seemed to

be “appropriate.” It added, however, that the conclusion that the Data Bank is useful is

questionable and that the data in the report might be used to support a contrary

conclusion. We did not conclude that the Data Bank is usefid. We elaborated on how

one’s assessments of usefulness and impact will depend heavily on one’s expectations of

the Data Bank.


NCQA Comments

The NCQA responded that it was “heartening” to learn that most respondents found the
Data Bank reports to be useful, but “disturbing” to find that some queries to the Data
Bank were made after the credentialing decisions had been made. It also offered some
clarification concerning NCQA credentialing standards. We made minor changes in our
text in accord with NCQA’s clari~cations on its credentialing standards.

AMA Comments

The AMA expressed its reservations about the cost-effectiveness of the Data Bank and
stressed that our report offered “an incomplete and misleading picture” of the Data Bank’s
usefulness and impact. Among the major points it emphasized were that: (1) our report
focuses on Data Bank matched reports rather than the larger universe of queries to the
Data Bank, (2) some of the data we presented appeared to be inaccurate, and (3) the
49 percent of managed care organizations that failed to respond to our questionnaire may
have a less positive view of the Data Bank than those who did respond.

We disagree with the AMA over the value of focusing on matches. We have done so in
this and other reports because we determined that it would provide discrete, practical
information about what the Data Bank actually produces for querying organizations. Such
information can contribute to broader assessments of the Data Bank. On the other points
raised, we (I) conjlrmed the accura~ of the data that was questioned and (2) have no
basis for knowing if nonrespondents are more or less favorably disposed toward the Data
Bank.


                                            iv
                        TABLE                  OF        CONTENTS

                                                                                                         PAGE


EXECUTIVE           SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3


     � usefulness    toManagedCare         Organizations . . . . . . . . . . . . . . . . . . . . . . ...3


     � Impacton     Managed care organizations           . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


CONCLUSION             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


COMMENTS            ON THE DRAFT REPORT                    . . . . . . . . . . . . . . . . . . . . . . . .    10


APPENDICES


A: Methodology            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


B: Summary ofResponses              totheOIG      Mail Survey . . . . . . . . . . . . . . . . . . . . B-1


c:     Complete Comments ontheDraft              Report. . .     . . . . . . . . . . . . . . . . . . . . . , c-1


D: Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..D-l

                          INTRODUCTION

PURPOSE

To assess the usefi.dness and impact of information in the National Practitioner Data Bank
to managed care organizations.

BACKGROUND

Since September 1, 1990, the National Practitioner Data Bank has received and
maintained records of malpractice payments and adverse actions taken by hospitals, other
health care entities, licensing boards, and professional societies against licensed health
care practitioners. It provides hospitals and other health care entities with information
relating to the professional competence and conduct of physicians, dentists, and other
health care practitioners. The Data Bank was established by Title IV of the Health Care
Quality Improvement Act of 1986 (P.L. 99-660), as amended, and is fimded by user fees.
It is operated by Unisys Corporation under contract to the Health Resources and Services
Administration (HRSA) of the Public Health Service.

Hospitals are required to request information from the Data Bank about every physician
and dentist who applies for appointment. Hospitals must also query about all medical and
dental staff and other health care practitioners with clinical privileges at least once every
2 years. They have the option of querying about any practitioner with privileges (or who
is seeking privileges) at any time. The Data Bank is intended to provide information to
hospitals to help them make decisions about hiring, granting privileges to, and disciplining
practitioners.

Other health care institutions,. such as health maintenance mganizations (HMO@,.preferred
provider organizations (PPOs), and group practices also query the Data ?3arik. in order to
query, these other institutions must provide health care services and engage in professional
review activity through a formal peer review process. Unlike hospitals, which are
mandated to query, HMOS, PPOS, and group practices query voluntarily. However, in
1993 the National Committee for Quality Assurance issued credentialing standards that
serve to encourage HMOS seeking accreditation to query the Data Bati- for practitioners
seeking credentials. 1

As of February 25, 1994, the Data Bank issued 144,649 matched reports of malpractice
payments or adverse actions against physicians, dentists, and other health care
practitioners to querying health care entities. We summarized in detail the profiles of
these “matches” in a report released in August 1994.2 The HMOS, PPOS, and group
practices received 31,377 (or 22 percent) of those 144,649 reports in response to their
queries during this 3 1/2 year period. Queries and “matches” from these organizations
have grown since the Data Bank was established.3




                                              1

In February 1993, we released a report that evaluated the usefulness and impact of reports
to hospitals through March 1992.4 That report provided officials in the Department and
other parties interested in the Data Bank with an early evaluation of the Data Bank’s
effectiveness and utility. In December 1993, the Administrator of HRSA asked us to
update the information in the February 1993 report using more recent “matches.” He
cited significant changes in the operation of the Data Bank, a more sizable universe from
which to draw experiences, and the usefulness of the report to officials in HRSA as
reasons for his request. We agreed to conduct that study and issue another report. 5 In
addition to that updated study, we conducted this study of the experiences of HMOS,
PPOS, and group practices with using Data Bank information. For the purposes of this
study we are referring to these as managed care organizations. In this report we refer to
some findings of the updated hospital report, particularly where we found major
differences between managed care organizations and hospitals.

METHODOLOGY

The data presented in this report are derived from a survey of HMOS, PPOS, and group
practices that received reports of malpractice payments or adverse actions from the Data
Bank. We drew a sample of 400 matches from the universe of 30,016 HMO, PPO, and
group practice matches from March 20, 1992 through February 25, 1994 (our prior study
was based on a sample from September 1, 1990 through March 19, 1992). A match
occurs when a querying organization receives a report of a specific incident from the Data
Bank. We received 203 useable responses, the majority (94 percent) from HMOS:
190 from HMOS, 6 from PPOS, and 7 from group practices. Our findings can be
projected to the universe of 30,016 matches. Appendix A gives details of our
methodology and provides information about the reports and practitioners included in the
study.

We conducted this study in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             2

                                 FINDINGS


USEFULNESS: Managed care officials found nearly all Data Bank reports to be
useful.

Whether a report from the Data Bank is useful to a managed care organization depends on
several factors. Some factors can be determined objectively, such as whether the report
provides new information or duplicates other reports, whether it is accurate, and whether
the report arrives in time to be used in the privileging process. Other factors are more
subjective, such as whether the report is relevant to the practitioner’s competency and
professionalism. Measured by both objective and subjective criteria, the Data Bank
appears to provide useful information.

�	     Managed care officials found 96 percent of the Data Bank reports they received to
       be useful. This compares with 83 percent of hospital officials who found the Data
       Bank reports to be useful.

The above finding refers to instances when a query to the Data Bank produces a report

having malpractice or adverse information on a practitioner. When making queries,

managed care organizations are more likely to get responses indicating that the Data Bank

has no malpractice or adverse information on a practitioner. We asked them how usefi.d

such responses are: extremely usefi.d, very useful, moderately useful, somewhat useful,

or not useful. Among the 96 percent who answered that the reports were useful, the

majority designated the “extremely” or “very” useful categories. They cited documenting

the privileging process, confirming other sources, and increasing confidence to explain

why such responses were useful. Seventy-seven percent of the hospitals also found such

responses to be extremely, very, or moderately useful.


We asked managed care officials, whether, considering all things, it was worthwhile to

query the Data Bank. Ninety-five percent of them reported that it was worthwhile. They

mentioned that querying was quick, easy, and helped them document their privileging

process, especially in light of the National Committee for Quality Assurance accreditation

standard calling for Data Bank queries.


We also asked managed care officials to rate the usefulness of the four types of Data Bank

information: licensing board actions, hospital actions, malpractice payments, and

professional society actions. G The majority rated all types as extremely useful:

79 percent rated licensing board actions as extremely useful; 75 percent, hospital actions;

68 percent, malpractice payments; and 60 percent, professional society actions. Hospitals,

on the other hand, were less likely to rate adverse action reports (from hospitals or

licensure boards) as useful.


�	     Twenty-two percent of the Data Bank reports provided information previously
       unknown to managed care organizations.



                                             3

The managed care officials judged as useful all of the reports that provided new
information and 94 percent of those that provided information they already knew.

For some managed care organizations, the Data Bank appears to fill gaps in information
from other common sources, such as practitioners, malpractice insurers, and State
licensure boards. For example, we found that 31 percent of the Data Bank reports
provided information that practitioners did not provide themselves to the organizations. In
hospitals, 42 percent of the reports provided information that the practitioners did not.
Varying disclosure and privileging policies, awareness of the Data Bank, assumptions
about other entities disclosing relevant information, and/or desire to withhold information
could all influence the extent to which practitioners disclose details about their own
backgrounds.

The Data Bank appears to be a particularly important source of information on adverse
actions for some managed care organizations. The officials reported already knowing
about malpractice payments more often than adverse actions. They were already aware of
the information in 80 percent of the reports concerning malpractice and 58 percent of the
reports concerning adverse actions.

�	     The managed care officials’ most-often cited reason for usefulness was that the
       reports confirmed information about practitioners that organization officials already
       knew. Other common reasons cited include that the reports’ help in making
       judgments about practitioners’ professionalism and competency.

The Data Bank may in fact be filling a need for a reliable source of information. Of the
Data Bank reports judged usefi.d, 75 percent were considered usefi,d because they
confirmed information available elsewhere. Hospital officials cited that same reason for
65 percent of the reports judged useful. If the managed care officials found other sources
of information to be very reliable or trustworthy, they might find Data Bank reports to be
less useful because they were duplicative. Indeed, duplicative information was the reason
cited by seven of the eight managed care officials who judged the reports not useful.

The second and third reasons cited more closely reflect the Data Bank’s purpose to
provide information on professional competence and conduct: 67 percent of the reports
were considered useful because they helped organizations in judging practitioners’
competency, 52 percent for judging professionalism. Hospital respondents cited those
reasons less often: 32 percent for competency and 25 percent for professionalism.

The fourth reason managed care officials cited to explain usefulness was providing
information unavailable elsewhere. Of the Data Bank reports judged useful,
19 percent were judged useful in part because they provided new information. For
hospitals, 24 percent of the reports were considered useful for this reason.

Finally, for those pursuing accreditation from the National Committee for Quality
Assurance, querying the Data Bank satisfies an accreditation standard. Several managed



                                              4

care officials reported that the Data Bank reports provide important documentation for
both their own privileging and the accreditation process.

�	     The managed care officials reported that, upon additional inquiry, 3 percent
       (5 of 203) of the Data Bank reports appeared inaccurate. No hospital reported
       that, upon additional inquiry, the Data Bank reports appeared inaccurate.

Managed care organizations have other sources for information about practitioners, which
gives them the opportunity to compare information among sources. These comparisons
may prompt some organizations to make fi.mtherinquiries; other organizations make
further inquiries as a matter of course.

In our sample, 3 percent (5) of the managed care officials reported that, upon additional
inquiry, the Data Bank reports appeared inaccurate. In one case, for example, the official
noted that the Data Bank wrongly characterized the type of payment and the number of
practitioners involved in the payment. In another the official said the Data Bank had the
wrong settlement amount. And another noted the report to be inaccurate because it
included claims the malpractice insurer did not--making the Data Bank report appear to be
more comprehensive than the insurer’s report. These inaccuracies warrant additional
scrutiny and have been called to the attention of the Public Health Service.

In our draft report, we had indicated that 5 percent (10) of the officials noted that the Data
Bank reports supplied to them should have had additional information on the practitioner
in question. They reported being aware of 13 sanctions (4 disciplinary actions and
9 malpractice payments) since September 1, 1990 that the Data Bank reports did not
include.

Upon further inquiry since the issuance of our draft report, we found that 11 of the
13 missing actions or payments were explainable as respondent errors or as timing issues
(wherein a managed care organization learned of a malpractice payment or disciplinary
action from another source before it was sent to the Data Bank). In two cases, both
involving malpractice payments, it appears that there may have been nonreporting to the
Data Bank. We are still investigating this.

�	     Overall, the Data Bank’s median response time to a query from a managed care
       organization was 23 days. With electronic queries, the median dropped to
       13 1/2 days; without electronic queries, it increased to 35.

Managed care organizations can query the Data Bank two ways: electronically or through
the mail. In our sample, managed care organizations obtained 53 percent of the reports
electronically.

Receiving the reports in time for decisions can also be an important factor affecting
usefulness. The majority of managed care organizations received their requested reports
before they made their final privileging decisions (86 percent). In some cases, however,



                                              5

they queried late in their decision-making process or after the decision had been made,
making it impossible for the reports to arrive in a timely manner. Of the 9 percent
(18) that received their reports after a decision was made, 61 percent (11), submitted their
queries after they had made their decisions.


IMPACT ON DECISIONS: The managed care officials seldom made different
privile~”ng decisions than they would have made without the Data Bank reports.

The information from the Data Bank can affect managed care organizations in several
ways. It may give their administrators confidence that they have complete information
about their medical staffs. It may add information to practitioners’ files that could be
used in the future should questions arise. But Data Bank reports can have their most
direct impact by affecting the outcome of decisions on practitioners who are undergoing
the privileging process for the first time or for renewed credentials. For this reason, we
asked managed care officials the following question: Would your decision regarding the
practitioner have been different if you had not received the Data Bank report? Because
our measurement of impact focused on the privileging decisions, we excluded most of the
cases with pending decisions from our analysis.7 We did include four cases with pending
decisions because the managed care officials made it clear that even though the decisions
were pending, they were indeed affected by the information in the Data Bank report.

Figure 1 depicts the proportion of reports that had impact, no potential for impact, and
potential for impact.


                                                   Figure 1
                                 IMPACT OF DATA BANK REPORTS

                                                                                  le to Have Impacg
                                                                                  DidNot 16%


                    Unlikely to Have
                     Impact 81%
                                                      VI     J                Had An Impact 3%
                                                                              (lkciaiona Different)




                                                   omEralsIlrwy
                                                             0f3ndo,FTo,
                I
                         SOlnw   HHsofamOfrlqmtm                           andgmppdicecllkida




�	     According to the managed care officials, 3 percent (5 of 183) of the Data Bank
       reports led them to make different decisions than they would have made without


                                                         6
       the reports. Among the officials who did not make different decisions, 65 percent
       reported that the reports made them feel more confident about their decisions.

One managed care organization was involved in three of these decisions. The official
there noted that the Data Bank information caused a delay in the privileging decisions that
otherwise would have been made right away. In one case the Data Bank report described
a $3,375 surgery-related malpractice payment and in another a $25,000 malpractice
payment for a medication error.

Another managed care organization decided that, based on the information in the report,
the practitioner had to undergo reprivileging every year rather than every other year as the
organization policy requires. That report described a $200,000 malpractice payment
related to failure to diagnose.

Finally, one managed care organization reported that, without the Data Bank report, it
would have granted privileges as requested by the practitioner. Instead, it revoked the
practitioner’s participation in the organization. That report described a
$12,500 malpractice payment related to inappropriate behavior of the practitioner and
improper management of the medication regimen.

�	     Eighty-one percent (148 of 183) of the Data Bank reports had little chance to have
       an impact on managed care organizations’ privileging decisions. These reports
       either named practitioners who did not complete the privileging process, were not
       received prior to the decisions, or provided information already known.

Of these 148 reports:

       11 named practitioners who did not complete the privileging process. These
       practitioners either withdrew their applications, retired, terminated their
       relationship with the organization, or failed to submit a completed application.

       17 were not received prior to the managed care organizations’ decisions. For
       10 of these reports, the organization did not query the Data Bank until after
       making their decisions.

       120 provided information already known to the managed care organization.

We also asked managed care officials why the reports did not lead them to make different
decisions. The top reason, cited by 63 percent of responding officials, was already
knowing the information. The next reason, cited by 44 percent of responding officials,
was that the information in the Data Bank report did not warrant restricting or denying
privileges. Respondents cited other reasons less often: that the report failed to arrive in
time (7 percent) and that they would have denied or restricted privileges anyway
(1 percent).




                                             7

�	     Sixteen percent (30 of 183) of the reports arrived before the managed care
       organizations made final privileging decisions and contained information that
       neither the physician nor any other source had provided, yet did not have an
       impact on organizations’ privileging decisions.

We asked the organization officials who said their decisions would not have been different
without the Data Bank report why that was so. Of the responding officials, 63 percent
said that at least part of the reason the reports failed to have impact was that the reports
did not indicate a problem warranting restricting or denying privileges. The organizations
considered all of these reports useful even though they had no impact on privileging
decisions.




                                              8

                             CONCLUSION


The information in this report contributes to an understanding of the usefulness and impact
of the Data Bank in managed care organizations. Almost all--96 percent--managed care
organizations receiving information from the Data Bank find it useful. In fact, this
percent is considerably higher than the percent of hospitals finding the information useful
(83 percent). At the same time, our data reveal that Data Bank reports seldom affect
privileging decisions of managed care organizations.

During this and prior inspections on the Data Bank, we have become ever more aware of
differing expectations of the Data Bank. Thus, any assessments of the Data Bank’s
usefulness and impact will depend heavily on how these expectations are expressed and on
the relative emphasis given to them. In that context, we offer the following concluding
observations concerning three important expectations about the Data Bank.

�	     Data Bank as a Reliable, Centralized Source of Information. In the sense that
       the Data Bank is expected to serve as such a source of information about adverse
       actions and medical malpractice payments, it seems to be working quite well. It is
       a timely, accurate source that is widely regarded as useful--mainly because it
       confirms information available from other (presumably less reliable) sources.

�	     Data Bank as a Unique Source of Information. In the sense that the Data Bank is
       expected to serve as a unique source of information--that is, one unavailable
       elsewhere--it clearly has some value. In our sample, 22 percent of the reports
       provided new information to managed care organizations. That 22 percent projects
       to 6,483 reports providing new information to managed care organizations over a
       period of almost 2 years.8

�	     Data Bank as a Mechanism to Prevent Incompetent and/or Unprofessional
       Practitioners from Practicing in HMOS, PPOS, or Group Practices. Clearly this
       is the most ambitious and controversial of these expectations. It is also the one
       most difficult to assess without more information. In one sense, the fact that
       3 percent of reports are having an impact on privileging decisions may seem
       inappropriately low. It may suggest that managed care organizations are overly
       reluctant to take adverse actions against incompetent and/or unprofessional
       practitioners.

       Yet, to the extent that only a small percent of practitioners are unfit to practice,
       one may argue that nothing is necessarily inappropriate about 3 percent of reports,
       which projects to 930 reports over a period of almost 2 years, having an impact on
       privileging decisions. 9 These 930 reports involve hundreds of practitioners and
       affect thousands of patients they serve. Finally, it is important to recognize that
       the very existence of the Data Bank may deter some unfit practitioners from even
       applying to managed care organizations for practice privileges and may encourage
       other practitioners to be more forthcoming in the applications they submit for
       managed care organization privileges.


                                             9

COMMENTS                       ON       THE         DRAFT              REPORT

We solicited and received comments on the draft report from the Public Health Service
(PHS), the Assistant Secretary for Planning and Evaluation (ASPE), the National
Committee on Quality Assurance (NCQA), and the American Medical Association
(AMA). We include the complete text of their comments in appendix C. Below we
summarize the comments of the respondents and, in italics, offer our response.

PHS COMMENTS

The PHS expressed its appreciation for our efforts and indicated that the report would be
“helpful.” It called for one minor change in the background section of the report where
we explain the Data Bank law. We appreciate the positive response from PHS. We made
the change requested.

ASPE COMMENTS

The ASPE commented that the purpose of our inquiry was “commendable” and that the
survey methodology seemed “appropriate.” It added, however, that the conclusions we
drew “are a matter of interpretation and that the findings of the report could be used to
support conclusions other than those supported by the OIG. ” It recommended that we
discuss why we conclude that the Data Bank is useful when some evidence in the report
might be used to reach a contrary conclusion.

We did not draw the conclusion, as ASPE stated, that the Data Bank is useful. In our

concluding section, we pointed out that the data in the report contribute to an

understanding of the useji.dness and impact of the Data Bank. We indicated that

assessments of usefulness and impact will depend heavily on one’s expectations of the Data

Bank and the relative emphasis given to them. We then o~ered some pertinent

observations concerning each of three sets of expectations.


The ASPE also commented that our major finding that supports the usefulness of Data
Bank reports is based on only 60 of 200 respondents, or 30 percent of the sample
answering question 27. Therefore, ASPE suggested: “One could interpret this finding to
indicate that only 30% of the sample could answer positively. ”

Our major finding that 96 percent of managed care oflcials found Data Bank reports to
be useji.d was based on 177 positive responses (96 percent) f70m manuged care oficials
answen”ng question 30, not question 27. The 177 respondents answen”ngpositively to
question 27 represent 87 percent of all those questioned.

NCQA COMMENTS

The NCQA indicated that it was “heartening” that most respondents found Data Bank
reports to be useful, but “disturbing” that some queries to the Data Bank were made after
the credentialing decisions had been made. It also offered some clarification concerning



                                             10

NCQA credentialing standards. We made minor changes in our text in accord with
NCQA’s clarifications on its credentialing standards.

AMA COMMENTS

The AMA concluded that our report provided “anincompleteand misleading picture” of
the Data Bank, which it increasingly believes “is neither a reliable nor a cost effective
mechanism... ” The AMA’s overarching concern about the report is that it focuses on the
universe of Data Bank matches rather than the much larger universe of queries made to
the Data Bank. In this context, it urged that we incorporate more information about
queries into the report and that we clarify in our background section that the reports we
are addressing are “matched” reports.

The AMA questioned the accuracy of our statement that 42 percent of reports to hospitals
provided information that practitioners themselves did not report to the hospitals. It based
this concern on a reference made in our parallel report on hospitals that noted that
28 percent of the matched reports provided information previously unknown to hospital
staffs. The AMA also questioned the accuracy of our finding that 3 percent of Data Bank
reports to managed care organizations led these organizations to make different decisions
than they would have made otherwise. However, it did not elaborate on why it felt that
this percentage might be inaccurate.

Other observations that the AMA offered were (1) that the 49 percent of managed care
organizations that failed to respond to our questionnaire may have a less positive reaction
to the Data Bank than those that did respond, (2) that the reasons for querying the Data
Bank may help explain respondent assessments of the Data Bank, and (3) that two of our
findings warrant further investigation. These were the findings that 3 percent (5) Data
Bank reports appeared to be inaccurate and that Data Bank response time to reports not
made electronically had increased.

We disagree with the MA over the value of focusing on Data Bank matches. We have
done so because we concluded that it would provide discrete, practical information about
what the Data Bank actually produces for querying organizations. Such information can
contribute to broader assessments of the worth of the Data Bank.

We have not provided additional projile information about the Data Bank in the report.
We provided a considerable amount of such information in a prior report entitled,
“National Practitioner Data Bank: Projile of Matches Update (OEI-01-OO031).“ However,
as the AMA suggested, we have clarified, in the background section of the report, that the
Data Bank reports we are referring to are “mutched” reports.

Our statement that 42 percent of reports to hospitals provided information that
practitioners themselves did not report is, in fact, correct. The 28 percent that the AMA
referred to does not apply to the same universe, but rather to the larger universe of
reports coming from any non-Data Bank source, not just practitioners. Our finding that
3 percent of the respondents informed us that Data Bank reports led them to make
diflerent decisions than they would have made without the reports is accurate. It is not
clear to us why the AMA questions the accuracy of this finding.


                                             11

In regard to the AMA’s jinal points, we (1) have no basis for knowing whether
nonrespondents are more or less favorably disposed toward the Data Bank, (2) agree that
knowing the reasons for querying the Data Bank could help explain respondent
assessments (but we are unable to conduct such inquiry at this time), and (3) believe that
the two jindings noted by AMA warrant scrutiny and have called them to the attention of
the Public Health Service.




                                            12

                              APPENDIX                    A

                                    METHODOLOGY

We collected the data presented in this report through a mail survey of health maintenance
organizations (HMOS), preferred provider organizations (PPOS), and group practices
conducted from May to July 1994. We drew our sample from the universe of all Data
Bank matches involving HMOS, PPOS, and group practices between March 20, 1992 and
February 25, 1994. A match is a pairing of a report and a query to the Data Bank that
name the same practitioner. We requested and received from Unisys Corporation, the
Data Bank contractor, a computer file containing records of all Data Bank queries and
reports that identified the same practitioner, We restructured and analyzed the data using
SAS@Release 6.08 on a mainframe computer and Version 6.04 of the SAS@System for
Personal Computers.

We drew a simple random sample of 400 matches from the universe of 30,016 matches
involving HMOS, PPOS, and group practices. In May 1994, we mailed a questionnaire
about each report to the organization involved. There were 144 managed care
organizations that received questionnaires:

       69 organizations were each sent questionnaires on 1 practitioner;

       26 were each sent questionnaires on 2 different practitioners (1 received
       2 reports about 1 practitioner);

       22 were each sent questionnaires on 3 different practitioners (1 received
       2 reports about 1 practitioner);

       14 were each sent questionnaires on 4 different practitioners (1 received
       2 reports about 1 practitioner).

       3 were each sent questionnaires on 5 different practitioners;

       3 were each sent questionnaires on 6 different practitioners;

       1 was sent questionnaires on 7 different practitioners;

       1 was sent questionnaires on 8 different practitioners;

       1 was sent questionnaires on 10 different practitioners;

       2 were sent questionnaires on 11 different practitioners;

       1 was sent questionnaires on 13 different practitioners; and,

       1 was sent questionnaires on 61 different practitioners.



                                            A-1

We followed with a second mailing to nonrespondents. All responses used in the analysis

were received by July 20, 1994. Appendix B shows the questionnaire and simple

frequencies.


Questionnaires were addressed to the person whose name appeared on the original query

to the Data Bank. Most respondents held the position of medical staff coordinator or the

equivalent.


Our response rate was 51 percent (203). Most of the responses (93 percent) concerned

malpractice reports; 7 percent concerned adverse action reports. Overall, malpractice

matches accounted for 89.5 percent of the universe of matches, so the distribution of

report types in our response was similar.


Ninety-four percent of the respondents were HMOS; 3 percent PPOS; and 3 percent group

practices.


Sixty-eight percent of the respondents queried the Data Bank on initial privileging or

employment applications, 11 percent on the 2-year review requirements, and

21 percent queried for professional review purposes. Of the 14 responses based on

adverse actions, half were State licensing board actions and half were hospital clinical

privileges actions. Ninety-eight percent of the respondents queried about physicians (the

other practitioners were dentists and podiatrists). The specialties of the physicians are

listed in table A.


There were 88 organizations represented in the responses:


       Of the 69 organizations sent questionnaires on 1 practitioner, 42 responded;

       Of the 26 sent questionnaires on 2 practitioners, 18 responded (1 for
       1 practitioner, 17 for 2);

       Of the 22 sent questionnaires on 3 practitioners, 14 responded (2 for
       2 practitioners, 12 for 3);

       Of the 14 sent questionnaires on 4 practitioners, 7 responded;

       Of the 3 sent questionnaires on 5 practitioners, none responded;

       Of the 3 sent questionnaires on 6 practitioners, 3 responded;

       The 1 sent questionnaires on 7 practitioners did not respond;

       The 1 sent questionnaires on 8 practitioners responded;

       The 1 sent questionnaires on 10 practitioners did not respond;

       Of the 2 sent questionnaires on 11 practitioners, 2 responded (1 for
       9 practitioners and 1 for 11)


                                           A-2

       The 1 sent questionnaires on 13 practitioners responded; and,

       The 1 sent questionnaires on 61 practitioners did not respond.

Unless otherwise noted, survey results presented as percentages have a margin of error of
approximately 5 percent at the 95 percent confidence level. For example, we are
95 percent confident that the true percentage of Data Bank reports judged useful is
between 78 and 88 percent (83 percent plus or minus 5 percent). Confidence intervals for
the statistics presented in this report are summarized in table B.




                                          A-3

                                                  TABLE A
                                           TYPES OF PRACTITIONERS
TYPE OF PRACZITONER                        NUMBEROF MATCHES                            PERCENTAGE
                                                                                                OF MATCHES

TOTA                                                                         203                                    100.0%
PHYSICIANS                                                                   199                                     98.0

          Obstetrics and Gynecology                                  34                                      16.7
          General Surgery                                            25                                      12.3
          Orthopedic Surgery                                         20                                      9.9
          Family Medicine                                           16                                       7.9
          Pediatrics                                                11                                       5.4
          Missing or Miscoded                                       11                                       5.4
          Neurological Surgery                                       10                                      4.9
          Internal Medicine                                          8                                       3.9
          Ophthalmology                                              8                                       3.9
          General Medicine                                            7                                      3.4
          Cardiology                                                 6                                       3.0
          Eye, Ear, Nose, and Throat                                 5                                       2.5
          Urology                                                    5                                       2.5
          Anesthesiology                                             4                                       2.0
          lloracic Surgery                                           4                                       2.0
          Plastic Surgery                                            4                                       2.0
          Oncology                                                   3                                       1.5
          Pubnona~ Medicine                                          3                                       1.5
          Radiology                                                  3                                       1.5
          Osteopathic Gynecology                                     2                                       1.0
          Psychiatry                                                 2                                       1.0
          Allergy                                                    1                                       0.5
          Cardiac Surgery                                            1                                       0.5
          Gastroenterology                                           1                                       0.5
          Hematology                                                 1                                       0.5
          Infectious Diseases                                        1                                       0.5
          Neonatology                                                1                                       0.5
          Pathology                                                  1                                       0.5
          Perinatology                                               1                                       0.5
                                       1                                           I
DENITSTS and ORAL SURGEONS             1                                      21                                      1.0

PODIA21US~                                                                    2]                                      1.0

Source:   OIG Survey of HMOS, PPOS, and Group Practices, May - July, 1994.




                                                        A-4

                                           TABLE B
                           CONFIDENCE INTERVALS FOR KEY STATISTICS
Description                                                             Page    Value         95% Confidence
                                                                                 (%)             Interval
                                                                                                 (+ or -)
Proportion of reports considered useful                                  3      95.7%     I       2.9%
Proportion of respondenta who consider it worthwhile--’’all
things considered’’--to query the Data Bank
                                                                         3       95.0
                                                                                          I        3.4

Proportion of respondents rating reports without adverse                 3
information extremely or very usefil
Proportion of respondents rating reports without adverse                 3
information moderately useful                                                  +----=
Proportion of respondents rating licensing board actions                 3       78.6              6.2
extremely useful                                                                          1
Proportion of respondents rating hospital actions extremely
useful                                                              I    3       74.6
                                                                                          I        6.6

Proportion of respondents rating malpractice payments
extremely useful
                                                                         3       68.0
                                                                                          I        7.0

Proportion of respondents rating professional society actions            3
extremely useful
Proportion of reports providing information previously                   3       21.6              5.9
unknown
                                                                                 100.0	             o
Proportion of reports providing information previously
unknown considered usefid
                                                                         3
                                                                                          I
                                                                                          I
Proportion of reports providing information that the practitioner        4       30.5              6.6
did not self-report
Proportion of malpractice reports of which managed care
organizations were aware
                                                                         4       79.8
                                                                                          I        5.9

Proportion of malpractice reports of which managed care
organizations were aware                                            I    4       58.3
                                                                                          I        27.9

Proportion of respondents who considered reports useful                  4
because they confirmed information available elsewhere
Proportion of respondents who considered reports usetid                  4       66.7     I        6.9
because they helped judge competency
Proportion of respondents who considered reports useful                  4
because they helped judge professionalism
Proportion of respondents who considered reports useful                  4       18.6              5.7
because they provide information unavailable elsewhere
Proportion of respondents that, upon additional inquiry, found           5
the reports to be inaccurate
Proportion of respondents that reported the Data Bank reports            5        4.9     I        3.0
to be incomplete
Proportion of reports obtained electronically                            5



                                                     A-5

Proportion of reports that arrived prior to final decisions         5   86.2   5.9
Proportion of reports that arrived after the decision               5   9.3    4.2
Proportion of reports that were not “on time” because of a late     5   58.8   23.4
query
Proportion of reports with decisions pending                        6   11.8   4.4
Proportion of reports that made a difference in a decision          6   3.1    2.7
Proportion of reports that made respondent feel more confident      7   65.2   8.0
about a decision
Proportion of reports that had little chance of impact              7   80.8   5.7
Proportion of reports that named practitioners who did not          7   6.0    3.4
complete the credentialing process
Proportion of reports providing information already known           7   65.6   6.9
(though received “on time”)
Proportion of reports where respondents said at least part of the   7   62.7   7.7
reason for no impact was that reports gave them information of
which they were already aware
Proportion of reports where respondents said at least part of the   7   43.7   7.9
reason for no impact was that reports did not warrant
restricting or denying privileges
Proportion of reports where respondents said at least part of the   7   7.2    4.1
reason for no impact was that reports did not arrive in time
Proportion of reports where respondents said at least part of the   7   2.0    2.2
reason for no impact was that they would have denied or
restricted privileges anyway
Proportion of reports that could have had impact but did not        8   16,4   5.4
Proportion of reports that could have had impact and                8   63.3   17.3
respondents indicated that the report did not warrant restricting
or denying privileges
Proportion of reports that could have had impact but did not        8   100     0
that were considered useful




                                                        A-6

              APPENDIX          B

SUMMARY   OF MANAGED CARE ORGANIZATION   RESPONSES
                TO OIG MAIL SURVEY




                       B-1
       U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

                               USE AND UTILITY OF THE

                          NATIONAL PRACTITIONER DATA BANK


NOTE: The first 32 questions in this survey concern the case of Practitioner A, whose identity is given on the
last page of this questionnaire. Unless otherwise specified, please confine your responses to your knowledge
of the particular practitioner and event referred to on that page.

                            BASIC FACTS AND CHRONOLOGY

 1       What is Practitioner A’s specialty?          3Zdzfierent   specialties   represented              1


 2       On what date did Practitioner        A sign an application                  wide range of dates   2
         requesting privileges (either new or continued)?
 3       On what date did you request htformation              about                                       3
         Practitioner     A from the National     Practitioner    Data              wide range of dates
         Bank?

 4       Did you request information about Practitioner A                           Yes: 99                4
         using electronic querying methods (QPRAC)?                                 No: 89
                                                                                    Missing: 15
 5       On what date did you receive a response from the                           wide range of dates    5
         Data Bank? (Write “NR” if you have not yet received                        5 had not received a
                                                                                    response yet
         a response. )
 6       On what date did your organization          make its initial               ~“de range of dates    6
         decision regarding Practitioner A’s privileges? (W)-ite                    15 initial:ecisi~ns
         “PEWIATG” lf the organization’s initial decision has                       were pending
         not yet been mude, then skip to 15.)
 7	      Was your organization’s initial decision a temporary                       Yes: 38                7
         one pending further information?                                           No: 128
                                                                                    Missing: 37
                                                                                    (If no, skip to 9)
 8       (Skip if you answered NO to 7)                                             wide range of dates    8
         On what date did your organization make its final                          9final decisions
         decision regarding Practitioner A’s privileges? (Write                     ‘ending
          “PENDING” 17organization’s final decision has not
         yet been made, then answer 9 through 14 with respect
         to the organization’s initial decision. I
 9	      Were privileges granted to Practitioner A as requested                     yes:158                9
         by Practitioner A?                                                         No: 5
                                                                                    Missing: 40
                                                                                    (If yes, skip to 15)
 10	     (Skip if you answered YES to 9)                                            Yes: 2                 10
         Were Practitioner A’s privileges denied (for initial                       No: 2
                                                                                    Missing: 1
         application) or revoked (for renewal application)?
                                                                                    (If yes, skip to 15)


                        NATION& PRACTnIONER DATA BANK QUESTIONNAIRE-- PAGE 2
11	        (Skip if you answered YES to 9 or 10)                                       Yes: 1                11
          Were Practitioner      A’s privileges     restricted     or amended          ‘0:1
          in any way?                                                                  Missing: 3
                                                                                       (If no, skip to 15)
12	       (sk@ if you answered YES to          9 or 10 or NO to 11)                                          12
          In what way were Practitioner           A’s privileges     restricted       or amended?
      a             All privileges suspended (IF YES, FOR HOW                          Yes:0                      a
                  LONG?                                      )
      b                           May not perform certain procedures                   yes:0                      b
      c          May perform certain procedures only with another                      Yes:CI                     c
                                                      practitioner
      d                                     May co-admit patients only                 Yes:0                      d
      e               Mandatory consultation for certain conditions                    yes:0                      e
      f              Mandatory review before patient admission or                      yes:0                      f
                                                        discharge
      g           Proctor assigned to review Practitioner A’s work                     yes:0                      g
      h          Other (IF YES, SPECIFY:                                               Yes: 1                     h
                                                                                  )
13        (Skip if you answered YES to 9 or 10 or NO to 11)                            Yes: O                13
          Were    these restrictions   on Practitioner     A’s privileges              No: 1
                                                                                       Missing: 4
          in place prior to the application?

14        (Sktj if you answered XZS to 9 or 10 or NO to 11)                               (Check one)        14
          Which of the following best describes the restrictions
          applied to Practitioner A’s privileges?
      a          Routine (e. g., procedure(s) not approved in this                              o                 a
           organization, restriction applied to all new hires, etc.)
      b       Specific to Practitioner A (e. g., applied because of                             1                 b
                   particular event(s) in Practitioner A’s history)
15	       Were any other actions taken with regard to                                 Yes: O                 15
          Practitioner A’s employment, privileges, or                                 No: 1
          credentials (e. g., education requirements, drug testing,                   Missing: 4
          etc.)?
          (IF YES, EXPLAIN:




                     NATIONALPRACTITIOh!ERDATA BANK QUESTIONNAIRE-- PAGE 3
                 AVAILABILITY        AND ACCURACY OF INFORMATION



16	           Were you aware, from sources other than the Data              Yes: 149              16
              Bank, of the adverse action or malpractice payment            No: 41
              mentioned on the last page of this form?                      Missing: 13
                                                                            (If no, skip to 19)
17	           (skip ~ you answered NO to 16)                                                      17
              From which of the following sources   were you aware       of the adverse
              action or malpractice payment?
          a                               Practitioner A (self-report)      yes:132                        a
                                                                           No: 16
                                                                           Missing: 14
                                                                           N/A: 41
      b                                Licensing board in your state       yes: 10                     b
                                                                           No: 137
                                                                           Missing: 15
                                                                           N/A: 41
      c                             Licensing board in another state       yes:1                       c
                                                                           No: 146
                                                                           Missing: 15
                                                                           N/A: 41
      d                            Malpractice insurer in your state       Yes:53                      d
                                                                           No: 94
                                                                           Missing: 15
                                                                           N/A: 41
      e                          Malpractice insurer in another state      Yes:4                       e
                                                                           No: 143
                                                                           Missing: 15
                                                                           N/A: 41
      f                                        Hospital in your state      Yes:12                      f
                                                                           No: 135
                                                                           Missing: 15
                                                                           N/A: 41
  g                                         Hospital in another state      Yes:1                       g
                                                                           No: 146
                                                                           Missing: 15
                                                                           N/A: 41
  h                                Professional society in your state      yes:2                       h
                                                                           No: 145
                                                                           Missing: 15
                                                                           N/A: 41
      i                         Professional society in another state      ye~:0                       i
                                                                          No: 147
                                                                          Missing: 15
                                                                          N/A: 41




                      NATIONA PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 4
          j                                  Other source in your state Yes:II                              j
                                                  (IF YES, SPECIFY: flj$::; 15
                                                                      )“ N/A: 41”

      k                                   Other source in another state Yes:I                           k
                                                  (IF YES, SPECIFY: &;S;:: If
                                                                      ) ~,A: ~~
 18           (Mb if you answered NO to 16)                                 Yes: 27                18
              Was the information you received in the Data Bank             No: 111
              response inconsistent in any way with the information         Missing: 65
              reported by any of the above sources?
              (IF YES, WHICH SOURCES?


                                                                 )
19            Did you make additional inquiries (for example, to a          Yes: 49                19
              malpractice insurer or a hospital) to confirm the             No: 139
              accuracy of the Data Bank response or to obtain more          Missing: 15
                                                                            (If no, skip to 21)
              detailed information on its content?
20             (sic@ if you answered NO to 19)                             Yes: 39                 20
              Did your additional inquiries show the Data Bank             No: 5
              response to be accurate?                                     Missing: 158
              (IF NO, EXPLAIN:

                                                         )
NOTE: Questions 21-24 refer to the entire Data Bank response, not just to the report attached to this
questionnaire. Therefore, if you received more than one report from the Data Bank on Practitioner A,
please consider them all in answering Questions 21-24.

21	           Were you aware of any disciplinary   actions, or             Yes: 39                 21
              malpractice payments involving Practitioner   A that         No: 149
              were M contained in the response from the Data               Missing: 15
                                                                           (If no, skip to 25)
              Bank?
22	           (M@ if you answered NO to 21)                                                       22
              How many disciplinary actions and malpractice payments were you aware
              of that were ~t contained in the response from the Data Bank?
      a                                Number of disciplinary actions	 4 resP. aware of 1               a
                                                                           2 aware of 2
                                                                           1 aware of 4
      b                             Number of malpractice payments	 .20resp. aware of I                 b
                                                                           10 aware of 2
                                                                           2 aware of 3
                                                                           1 aware of 4
                                                                           1 aware of 7




                       NATION& PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 5
23	       (Skip if you answered NO to 21)                                               23
          How many of these disciplinary actions and malpractice payments
          occurred ~     September 1, 1990?
      a                          Number of disciplinary actions      .2rw. u~~reOY
                                                                                 1           a
                                                                     1 aware of 2
      b                        Number of malpractice payments	       7 rew. awareof ~        b
                                                                     1 aware of 2
24	       (Skip if you answered NO to 21)                                               24
          Which of the following sources provided information about disciplinary
          actions or malpractice payments that were @ contained in the response
          from the Data Bank?
      a                               Practitioner A (self-report)   Yes:32                  a

      b                            Licensing board in your state     yes:1                   b

      c                         Licensing board in another state     Yes:~                   c

      d                         Malpractice insurer in your state    Ya: 17                  d

      e                      Malpractice insurer in another state    Yes:1                   e

      f                                    Hospital in your state    yes:3                   f

      g                                 Hospital in another state    Yes:O                   g
      h                        Professional society in your state    yes:0                   h

      i                     Professional society in another state    yes;o                   i

      j                               Other source in your state     yes:~                   j
                                           (IF YES, SPECIFY:

      k                            Other source in another state     yes:o                   k
                                           (IF YES, SPECIFY:
                                                                )




                   h?ATION~ PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 6
                         CONSIDERATION             OF INFORMATION

25        BaSedon      tienotes   in Practitioner    A's file andyour   personal ~owledge       25
          of Practitioner     A’s application,    which of the following people or groups
          had access to and used the response from the Data Bank in making a
          decision regarding Practitione~ A’s application?
     a                                              Department chair      Yes: 32                    a
                                                                          No: 23
                                                                          Missing or N/A: 148
     b                                         Chief of medical staff    Yes: 52                     b
                                                                         No: 19
                                                                         Missing or N/A: 132
     c    HMO/PPO/Group Practice administration (CEO, Vice               Yes: 99                     c
                                             President, etc.)            No: 27
                                                                         Missing or N/A: 77
     it                                       Credentials committee      Yes: 176                    d
                                                                         No: 5
                                                                         Missing or N/A: 22
     e                           Medical staff executive committee       Yes: 26                     e
                                                                         No: 24
                                                                         Missing or N/A: 153
     f            HMO/PPO/Group Practice board subcommittee              Yes: 35                     f
                                                                         No: 39
                                                                         Missing or N/A: 129

     g                      Full HMO/PPO/Group Practice board            Yes: 17                     /3
                                                                         No: 43




                    NATIONAL PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 7
                             UTILITY OF INFORMATION	

26       Including the report on the last page, how many Data       131resp. rec ‘d 1      26
         Bank reports on Practitioner A did you receive in total    5 ~:~ ~
         from this request?
                                                                    2 rec ‘d 4
                                                                    1 rec ‘d 5
                                                                    (If 1, skip to 30)
27       (Sk@ if you answered “1”to 26)                             Yes: 59                27
         Overall, was the information contained in the              No: 1

                                                                    Missing or N/A: 143

         complete Data Bank response (i. e., all reports
         combined) useful to you?
                                                 IF YES, WHY?          (Check all that
                                                                          apply)
     a                   Information was unavailable elsewhere      Yes: 16                     a
     b            Information confirmed other reports that were     Yes: 45                     b
                                            available elsewhere
     c             Information helped us to judge practitioner’s    Yes: 42                     c
                                                   competency
     d             Information helped us to judge practitioner’s    Yes: 26                     d
                                                professionalism
     e    Other (EXPLAIN:                                           Yes: 2                      e
                                                                )
                                            IF NO, WHY NOT?            (Check all that
                                                                          apply)
     f                      Information was available elsewhere     Yes: O                      f

     g                               Information was inaccurate     Yes: O                      g
     h        Information did not help us to judge practitioner’s   Yes: 1                      h
                                 competency or professionalism
     i         Information was not provided in a timely manner      Yes: O                      i

     j    Other (EXPLAIN:                                       )   Yes: 1                      j
28       (Skip if you answered “1”to 26)                            Yes: 1                 28
         Would your decision regarding Practitioner A have          No: 41
         been different if you had ~ received the reports from      ‘isSing ‘r “A: 161
         the Data Bank?


                               IF YES, HOW (then skip to 31)?           (Check one)
     a                 Would have granted requested privileges      yes: I                      a
     b             Would not have granted requested privileges      yes: o                      b




                   NATIONA PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 8
                                 Would have restricted privileges       Yes: O                      c
      c
      d                      Would not have restricted privileges       Yes: O                      d

      e    Other (EXPLAIN:                                          )   Yes: O                      e

                                             IF NO, WHY NOT?                 (Check all that
                                                                                apply)
      f       Would have restricted or denied privileges anyway         Yes: O

      g    Already knew, from	 other sources, about information         Yes: 25
                               reported in Data Bank responses
      h      Data Bank responses did not indicate a problem that        Yes: 18                     h
                     warranted restricting or denying privileges
      i    Did not receive Data Bank responses in time	 to affect       Yes: 2                      i
                                                        decision
      j    Other (EXPLAIN:                                          )   Yes: O
29	       (Skip if you answered “YES”to 28)                                                    29
          Did the reports you received make you feel more
          confident, less confident, or no different about the
          decision you made regarding Practitioner A?                   (Check one)

                                                                        Missing or N/A: 165
      a                                            More confident       27                          a

      b                                             Less   confident    1                           b
      c                                               No different      lo                          c

30	       Overall, was the information contained in the Data            Yes: 177               30
          Bank report on the last page useful to you?                   No: 8
                                                                        Missing: 18

                                                  IF YES, WHY?               (Check all that
                                                                                 apply)
      a                   Information was unavailable elsewhere         Yes: 33                     a

      b            Information confirmed other reports that were        Yes: 133                    b
                                             available elsewhere
      c             Information helped us to judge practitioner’s       Yes: 118                    c
                                                    competency
      d             Information helped us to judge practitioner’s       Yes: 92                     d
                                                 professionalism
      e    Other (EXPLAIN:                                         )    Yes: 17                     e

                                             IF NO, WHY NOT?                 (Check all that
                                                                                apply)
      f                      Information was available elsewhere        Yes: 7                      f


                    NATIONALPRACTITIONERDATA BANK QIJESTIONNAIRE-- PAGE 9
      t!                                   Information was inaccurate          yes: o                      g
      h            Information did not help us to judge practitioner’s         yes: .2                     h
                                      competency or professionalism
          i         Information was not provided in a timely manner            yes: o                      i

          j    Other (EXPLAIN:                                             )   Yes: 2                      j
31	           Would your decision regarding Practitioner   A’s                 Yes: 5                 31
              privileges have been different if you had n~ received            No: 156
                                                                               Missing: 42
              the report on the last page from the Data Bank?
                                                      IF YES, HOW?
                                                                               (Zf H?S, check one.)
      a                      Would have granted requested privileges           Yes: 1                      a

      b                  Would not have granted requested privileges           Yes: O                      b

      c                              Would have restricted privileges          Yes: O                      c

      d                          Would not have restricted privileges          Yes: O                      d

      e        Other (EXPLAIN: ~                                                                           d
                                                                               Yes:4
                                                 IF NO, WHY NOT?                    (Check all that
                                                                                       apply)
      f           Would have restricted or denied privileges anyway            yes: 3                      f

      g        Already knew, from other sources, about information             yes: 96                     g
                                   reported in Data Bank response
      h           Data Bank response did not indicate a problem that           yes: 67                     h
                          warranted restricting or denying privileges
      i         Did not receive Data Bank response in time to affect           yes: ZI                     i
                                                           decision
      j        Other (EXPLAIN: ~                                               Yes:z                       j
32            (W@ if you answered “ZES” to 31)                                                        32
              Did the report you received make you feel more
              confident, less confident, or no different about the
              decision you made regarding Practitioner A?                           (Check one)

                                                                                     Missing: 58
      a                                                More contldent          90                          a

      b                                                 Less   confident       2                           b

      c                                                   No   different       46                          c




                       NATION~ PRACTLT.IONER
                                           DATA BANK QUESTIONNAIRE-- PAGE 10
NOTE: The remaining questions do not concern the specific case of Practitioner
A, but rather your general experience with and attitudes about the Data Bank.


                     GENERAL QUESTIONS ON THE
                  NATIONAL PRACTITIONER DATA BANK

33       How, if at all, have the other parts of your credentialing procedures been                      33
         affected by the availability of the Data Bank?
         72 respondents discussed how the Data Bank helps confirm other sources of information,
         identifies problems, and provides extra detail, 19 discussed how the Data Bank is required
         for credentialing, 19 discussed how the Data Bank has aided streamlining in the credentialing
         process by eliminating the need for other sources, and 9 discussed how the Data bank has
         added costs and delays to the credentialing process.   A host of other issues were also
         mentioned.




         Please rate the following four types of information maintained in the Data                      q’1

         Bank in terms of their usefulness to you--in practice or in theory--in the

         practitioner credentialing process. (Let 1 = extremely useful and

         4 = not at all usefi.d.)

     a          Hospital disciplinary actions/privilege restrictions               RATING:                      a
                                                                                   Mean: 1.43
                                                                                   S.D. :0.89
     b                                           Licensing board actions           RATING:                    b
                                                                                   Mean: 1.43
                                                                                   S.D. :0.93
     c                                              Malpractice payments           RATING:                      c
                                                                                   Mean: 1.53
                                                                                   S.D. :0.86
     d                       Professional society disciplinary actions             RATING:                    d
                                                                                   Mean: 1.90
                                                                                   S.D. :1.22

         How useful to you are responses from the Data Bank                             (Check one)      35
         that do not list any adverse information?
                                                                                        Missing: 29
     a                                                    Extremely useful         49                           a




                     NATIONALPRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 11
      c                                                Moderately useful         40                         c

      d                                                  Somewhat useful         15                         d

      e                                                          Not useful      15                         e

          Pk%LSe eX@iiIX      68 explained it was useful because it provides documentation for the
          credentialing process, it conjirmed other sources, or increased confidence; 14 mentioned
          concerns about the timeliness, adequacy, and completeness of data available in the data
          Bank, and; 3 mentioned it was not usefil because it repeats information in the que~.


 34       All things considered, do you feel it is worthwhile to                Yes: 153               36
                                                                                No: 8
          query the Data Bank?                                                  Missing: 42

          PhXiSe eXplaiIl: 93 mentioned that the Data Bank confirms other sources, documents the
          Data credentialing process, or is quick and easy; 5 mentioned it is not worth the time nor
          cost when information is readily available elsewhere, and; 3 mentioned that the Data Bank
          lacks historical information or may be incomplete due to hospitals not jiling.
 35       What kind of information ~t currently maintained by the Data Bank                            37
          would be usefi.d to you?
 36       Please list any additional comments and suggestions you have about the                       38
          o~eration of the National Practitioner Data Bank.



This is the end of the survey. Thank you for taking the time to complete it. Please return
your completed survey in the business-reply envelope to:
        Office of Evaluation and Inspections
        Office of Inspector General
        U.S. Department of Health and Human Services
        Room 2475, J.F.K. Federal Building
        Boston, MA 02203

If you have questions, please call David Veroff or Barry McCoy at 617-565-1050.




                     NATION& PRACTITIONERDATA BANK QUESTIONNAIRE-- PAGE 12
           APPENDIX            C


COMPLETE   COMMENTS     ON THE DRAFT REPORT




                      c-1
   ,, so-me   ‘



 *P”+
..

   4c
                   DEPARTMENT           (IF 14MLTH & HIJMA3J SERVICES                                               PublicHealthSewics
$e
  +.,
   *W,”
                                                                                                                    Memorandum
      D8r8           fEB2f199!5
      ffatl        Assistant           Secretary             for   Health


                  Office       of     Inspector              General        (OIG)       Draft      Reports        on    the
                  U6alhlrAtBs83         and       Impact       of National              PxactLtLone=             Data    Bank
                  Reports       to      Hospitals             and Managed              Care     Organizations,
     To           OEI-01-94-00030                  and       OEI-01-94-00032

                  Inspector           Generalt           OS

                  Attached          are     the    Public    ~ealth     Service       ctmnmerits   on the  .subj~Ct
                  OIG draft           reports.          We appreciate        the    efforts      Of OIG s~aif     in
                  developing            these      reports.       F7e offer      only     a few   general
                  comments and a sugges$,ededitorial change.

                                                         (///Aq&
                                                         i

                                                         Philip
                                                                       ,,

                                                                            .   Lee,
                                                                                         .~
                                                                                        X.D.

                  Attachment
    PUBLIC HEALTH SERVICE           (PHSI          C014FfE NTS ON THE OFFICE OF INSPECTOR
    GENERAL     (OIG\    DRAFT   REPORTS           ON THE ~~                           OF TH
     NA TIONAII    PIUACTTT~ONER     nATA          BANK   TO HOS PITALS    IUJD MANAGED CARQ
                ORG~IZATICIFJS,        (_)EI   01-94-00030     AND 0EI-01-94-00032A
                                               DECEMBE R 1994



  The     OIG   inspections         were  performed     at the request    Of the Health
  Resoux’ce8 and Sezvices               Administratfun     (HRSA).     Tha HRSA asked OZG
  to update  the         February       1993 inspection     repo-    on the usefulness
  and impact of          National Practitioner              ilata Bank reports     to
  hospitals,        and to consider      the Data           Bank’s  relevance    to managed
  care    organizations.

 We appreciate  the efforts of the OIG staff and their   cooperation
 with program officials in HRSA in developing these reports.
 These reports reflect many of the changes that we suggested to
 OIG staff during the exit conference  and on subsequent   occasions.
 We believe that these reports will be helpful in administering
 the program.
 Nevertheless, we believe that a wording change is needed to
pxovide greater   clarity in the “Background” section of the
 Executive Summary of both reports. ‘Thefirst paragraph in these
sections states   that “[ll)ospitalsare required to request
information fzom the Data Bank about every physician and dentist
who applles for appointment (they must queryat least every two
years).” The requirement might be better understood by readers
if the parenthetical phrase was deleted and replaced with the
following sentence: “In addition, hospitals must querY at least
once every two years on every practitioner who is on their
meaical     staff      or who has privileges.           “
       *w-    ~
  /’

       4(L

 E’                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                        -ka   Ot tho 6euotwv
 ~
  �                                                                                          .
  “’%19N                                                                                         Wmhmgton,   O.C,   z~ol


                                                          FEB z 7 B9!5
        To:              June Gibbs Brown
                         Inspector General

        From:            Assistant Wixetary for
                         Planning and Evacuation

       Subject          OIG Draft Repom on the Usefulness and Impact of the National Practitioner
                        nata Bank


       1 have reviewed two draft inspection_           entitled, “National Practitioner Data Bank
       lleports to Hospitals: ‘Ileir Impact and Usefulness” and “Nationai Practitioner Data Bank
       Repons to Managed Care Organizations: Their impact and Usefulness. ” The purpose of the
       surveys, as indicated in the titfes, is co determine if the users consider the data bank to be
      usefii in making decisions about gmnting privkges         to physicians. The purpose of OIG’S

      inquiry is commendable and the sumey methodology seems appropriate.


      I think, however, that the conclusions drawn by OIG am a matter of interpretation and hat
      the findings of the report could be used to support conclusions other than those drawn by
  OIG. For exampic, the findings fiwm the sumy of managed care entities suggest that the
  data bank is, contsary to 01(3’s contention, dupkatk as indicated by the following
  responses.

               Officiais said they sefdom or rarely relied on a repofl from the data bank ‘in deciding
              to deny pnviiegcs. In fact, only 8% (questionnaire item 27, page 8) of the
              information was reported unavailable ekewhere. This impIies that92% found the
              information avaiiablc elsewhere,

              The major finding that supportstheOIG’S concision of data bank usefulness is the
              answer to the quesuon, “Ovcrail. was the information contained in the complete Data
             Bankresponse    (i.e.,reports
                                  ail       combined)   useful10you?”(questionnaire   item27,
             page 8). Of those who answered, 96% tid yes; however, oniy 60 of 200
             respondents or 30% of (he sampie answerd the question.One could jnkxpre~this
             finding to Indimti that only 30% of the ~rnple could answer positivcl y.

I recommend that OIG discuss why its conciu.sion that the data bank is usefid is a better
nxding of (heeviden= than the conclusion reached ab~c- -~

                                           &,/:/)
                                             David
                                                           c..
                                                     T. EIIw~

Prepared by; Mary Bymes 690-7388
       F:2ti0Jl:li hllllllllk!!         1.350 Ncw 1 (vi+ A“.’cmx. ;\. \\’             !.,111: :!) U(12S. S7XI  FAX; 2[)2628-0344
       for Qualitv   Assus-ancc         Suite 700                                   ;J!.lflnlltfl ;lrl~ Dcvcmpmcrr!: 202/662-8610
                                        Washmgon. L).C. 2W05                         “,ccrcut;:ulon: 202/662- 1S85




      NCQA

      January 23, 1995



     Ms. June Gibbs Brown
     Inspector General
     Office of the Inspector Geneml
     Department of Heaith and Human Services
     330 Independence Avenue, S.W.
     Washington, D.C. 20201

    IXxUMs. Brown:

    I read with             dzaft inspection report, “Nationai Practitioner Data Bank Reports to
                     interest     the

    Managed Care Organizxions:      Their Usefulness and impact,” OEI-01-94-00032.          It was
   hwtening to karn that managed me orga.nhtions fmd the majori~ of reports they receive
   fim the National Practitioner Data Bank (NPDB) to be useful. Conversely, it was disturbing
   to note that some queti= to the NPDB occur after a privileging decision has already ken” made.

    I would like to offer one point of citification reiative to the repcm’s references to Nationai
    Committee for Quality Assurance (NCQA) credentialing sra,ndards (contzked on pages 3 and 4).
   NCQA standards state that the managed careorganization shouid request information from the
   NPDB. We have clarified this statement as applicable tothoseorgtitions          that are required
   to parucipa[e m tieNPDB. Orgamzations which do not pardcipate in the NFDB may meet the
  standardby requesting      a malpractice history of the appiicant. ~    requesting five years of
  malpracmx history from the maipract.ice ca.mier, ~ requesting reformation on the application
  regarding acucms taken by hospitals and managed care organizations that limited, suspended or
  abolished the practitioner’s privdeges, ti queryingtheFederation      of State Medical Boards. I
  hope thatthischmfkation is useful     to you as you prepare thefinalreport.

                           toreviewthis repat
 Thank you for(heopportunity                                                prior to itsrelease.

  Sincerely,
“\
j+~luLL          ,- ---

MargareLE. d’Ihne:
%esiaen r
                                                                                             -. \\ Ml,,
                                                                                                            JO
                                                                                         $
                                                                                                               ;\
                                                                                         ;#                   -:
                                                                                                            ~.
                                                                                       @            , ,A8
                                                                                             ‘ --
     suet,   S.   Todd,MD   515North !We StreP!      312 464-.YM
     &sseIIuvc
             WrcPruhient    Chiugo. [itinois 60610   312 W-4194 f-ax




     Febtuary 1. 1995


    IIM I-IonorabfeJune Gibbs &own
    -         ~~
    Of!icc of Inspector
                     Gencrai
    Department of Heaith & Human Semicea
    330 Independe=c Avenue. Sw - Room 5246
    Cohen Budding
    Waahingwn. D.C. 20201

   RE:       DraftInspection I@xxI. .%tionai Pnzctuioner Data Rank Repons ro Managed
             Gare Organfzafrons: I%eir L@Wness and impacr



   The     erican Medical Association (AMA] is pleased to respond to your request for
  comments on the Off~ceof Insp=mr @wti’s         (OIG) dratl inspection
                                                                       xport, AI’m”onaf
  Pmtiitioner Data Oti Repons to Mwged Care Orgaruzztimas: 77Wr i@Wness and
  i~act. Dcccrnbcr 1994 ~ SWed wpose of b sudy W- to assess * UScfuhess
  and im~acc  of Momation   in IJIC ~atiod f%mtioner    Data  Bank (NPDB) to managed
  care organizations.

 After reviewing the Dcccrnber drafi report. the AMA conckdes thatthe report provides
 an incompieu and rmsicadkg picture of rhe useftthaess and impactof the bJPDB.
 Funher. we senouiy question the OIG’s concluding observations in the report. Evidence
  increasingly ieads us m believe that the Data Bank is ncitk a reiiable nor a cost­
 effcctive mechanism forprcvenfing tic pubiic from ifmrnpcrmt or unprofmsiotud
 hospital-based practitioners. The AMA is very disappointed m see the serious flaws we
 identifiedin the February, 1993 OIG rcpo~ repeated in this repot%,with no apparent
 ?uempt co correct fmdty or misleading reformation. The &lA offers the following
 comments on M OIG’Scurrent draft KporL

 Ile draftreport wam fails to disciosethe total utiveR= of quemzsor any operatiomti
mformauon that m@t CmKCan accurate COYIUXt         for the data pt=eawd. Since the AMA
cited this as a most serious deficiency in the Februag. 1993 OIG report on the usefiiness
and impact of repom [O hospiais.     we quesuon why the OIG is ttot presenting a more
cornprdcnsxve and accumti assessment of the usefulness and impacc of the NPDE. The
AMA Mievcs tit some of tic cnti=i information fmrn the August. 1994 OIG mpot’t.
Mstional PracImoner Data Bank: Proflie of Marches Up&e. must be includedin this
         Page 2

         February 1. 1995

         Tbc Hmtotablc June Gibbs Brown



        c~nt report. For example. the following information should be inciuded in the

        background section of the draft report:


           Aa of A@. 1994, dw Data W had rcccived 3.462.297 requests for
           Mnsnatiost ad 82.623-    of mhmae actions or mdpcdce   payments.
           w a red   of b wri= de   W APrii of 19!% 152.941 matches had
           cxxumed (144.649 mad=      = Of Felnuary of 1994).

    This information provides a match raw of 4.4 percent. Approximately 96 percent of
   the queries ESUIM in no advc~e action or maipmcttce information. Yet the
   backgroundsection of tic draft rcpon presents a vay different picture. The draft
   rcpm SWCS. ‘as of February 25. 1994. ~OS. PPOS. and gr’ouPp~CtiCCS had
   rcccivcd, in response to queries. 31.377 reports of maiptitctice payments or adverse
   actiom against physici-. dentis~. ad other heaith cam practitioners. ” The
   statement is wrung. ad the AMA ~iievcs that tie WOrd “matefted” must be inaetred
   between he words “31.377” @ “rm~”           m propdy rcinfme the faa that this
  report is only 100icingat approximately 4 pm= of the universe of queries.
  % AMA notes Wt oniy 51 p=ent of h managed care organizations returned fhe
  qum;omire.       TIIe organizations that fti to return the questioariairc my not fed
  as strongIy that the NPDB is uscfil.

  IM muon managed c= Omciafs fou~ a Mhcr percent of the matched rcpoxu
  usefid may be re~ated toticremon hey queri~theNPDB. Sixty-eight percent of
  the managed care vrgatition    queries wem for initiai privileging and 21 percent were
  forprofessioml  review  purposes. (My i 1 percent of the queries were fortherwo­
 Yearreview rcquuemencscotnpmd [O hospitals which had 69 percent of their queries
 for tic two-year review. Inaddition. -gd       cam orimnizations have    been
 tigomusiy crcdcmi@ pmctitioners for a -h        shorter period of time.

On page 4 of ~c drafi won. tic ~JG comw-         tie ~a~ B* ww         tit provided
informauon tit practitioners did not provide f.hemseivesto rhe organimion and
compares that to hoapimls. me 42 percent for hospitals may be incorrect since the
OIG Lkcemb=. 1994 drafi ~POII On the use~iness of the NPDB to hospitals srates
duu 13 perunt of the matched reports in period B provided information previously
unkncwn (o hospital staffs.

Two {Mngs h this     dmfirepon that shouid be investigated inciudc the 3 percent of
rcpo~that   api=-    10 be fiwumm and tie increase in paper query response time.
PreYmus studies of the NPDB have fo~d it-$ti~ 10 be Miabie. w         new ftiittg
raises some questiom mgmd~g tie SCCUmCYof b NPDB. The NPDB had a.ko
madesignificmt   improvement co redu~ @ response time; * increaM to 35 days is
                                              -3-


     Page 3
    February 1.1995
    The Honorable June Gibbs Brown


    disturbing because some reports were rcceivd w he to have an @act         on the
           . .
    cm@nna@ decision.

   mtnoatimp’t=m        -mof=-ti~*r=@=d-Mm

   mon~                     dscisiotts. According to tbe returmd qmbmaim.         only 3

    percent of the matched reports made a difference in a privileging dccisiom 17ds
   number   may  even k iuwer if ail of the managed care oqpizations would have
   mtumed the sumy.      Witi a match rate of 414 percent and 3 PC=       of matched
   reporrs having an impact on privileging, cite overaii impact is 0.13 _      or about
   one out of every 750 queries.

   M& review     of the drafi rqxm the AMA seriousiy questions    theOIG’sconcluding
   observations.  Theidemificarion  of3 percent  ofthematchedreporrs    appears
   inaccurate andraises  questionsabout the NPDB being a tdiable source of
   information. In addition, the data bank is not a cost%ff=tive nor a usefial mechanism
  to protect the pubiic by preventing inco~tem     an~or unprofeasiod practitioners
  fmm practicing in managed care oetiom.            Vev rarciY did a lWDEqueryaff=t
  privileging decisions of managed care organizations. Only 0.13 percent of the queries
  at%ecta cmdentiaiing decision.

 In cmchxsion. based upon die above discussion. we Meve !hat it is diflkuit to justifi
 the direct and indimx costs of operating the NPDB. We urge you to carcftdly
 consider our conunems h order to ade~cciy m*SS tie UtiV and impact of ti
 IvPI)B to hospitals.



JZJLJ’’4,I9
&lllcS S. Todd. MD
                             APPENDIX                    D

                                         NOTES


1. National Committee for Quality Assurance (NCQA), Accreditation Standards,
Credentialing Standards 7.1 and 11.1 (1993) 28, 30. In commenting on our draft report,
NCQAnoted tiatapplicants maymeet tiecredentialing stindard “byrequestinga
malpractice history of the applicant, @ requesting five years of malpractice history from
the malpractice carrier, @ requesting information on the application regarding actions
taken by hospitals and managed care organizations that limited, suspended, or abolished
the practitioner’s privileges, @ querying the Federation of State Medical Boards.

2.	 Office of Inspector General, National Practitioner Data Bank: ProJle of Matches
Update, August 1994, OEI-01-94-00031.

3. Health maintenance organizations and group practices accounted for 6.5 percent of
matches (i.e., a querier requests information on a certain practitioner from the Data Bank,
and that practitioner has been reported to the Data Bank--a request-report pair) in the
period from September 1, 1990 through March 19, 1992. They accounted for
24.2 percent of matches for the period March 20, 1992 through February 25, 1994.

4.	 Office of Inspector General, National Practitioner Data Bank: Usefulness and Impact
of Reports to Hospitals, February 1993, 0EI-01-90-O0520.

5.	 Office of Inspector General, National Practitioner Data Bank Repoits to Hospitals:
Their Usefulness and Impact, Date, 0EI-01-94-OO030.

6. The question read “Please rate the following four types of information maintained in
the Data Bank in terms of their usefulness to you--in theory or in practice--in the
practitioner credentialing process. ”

7. In our sample, 10 percent (24) of the Data Bank reports involved practitioners for
whom the initial or final decisions were pending.

8. We are 95 percent confident that the proportion of reports that provide new
information to managed care organizations is between 4,727 and 8,239.

9.	 We are 95 percent confident that the proportion of reports that affect managed care
organizations’ credentialing decisions is between 215 and 1,646.




                                           D-1

